                                             UNITED STATES DEPARTMENT OF EDUCATION 

                                                  OFFICE OF INSPECTOR GENERAL 

                                                                       REGION V 

                                                               III NORTH CANAL. SUITE 940 

                                                                 CHICAGO. ILLINOIS 60606 


                                                                      FAX: (312) 353-0244
    Audit                                                                                                                                       Investigation
(312) 886-6503                                                                                                                                 (312) 353-7891



                                                                                                                      OCT 10 2003
                                                                                        Control Number ED-OIG/A05-D0026


                 Ms. Goldie H. Burge, Superintendent
                 Country Gardens Charter School
                 6313 W. Southern Avenue
                 Laveen, AZ 85339

                 Dear Ms. Burge:

                 This Final Audit Report presents the results of our audit of the Country Gardens Charter
                 School's (School) use of U.S. Department of Education (ED) funds for the period
                 October 1,2001, through September 30, 2002 (project period). The objective of our audit
                 was to determine if the School expended ED funds according to the law and applicable
                 regulations. Our audit disclosed that the School did not have policies and procedures in
                 place to provide reasonable assurance that its accounting records clearly identified how
                 the School used the $169,700 1 in Public Charter Schools Program (PCSP) funds it
                 received for the project period.

                 In response to a draft of this report, the School did not concur with the finding. The
                 School concurred that it did not properly record expenses paid with PCSP funds during
                 the project period and informed us that it implemented controls for reconciling its
                 accounting records with expenditures on a regular basis. The School did not comment on
                 our recommendations but the School concurred that it did not properly record expenses
                 paid with PCSP funds. Our review of the School's response caused us to modify our
                 procedural recommendation to reflect that the School informed us that it implemented
                 new accounting policies and procedures. The School's comments are summarized in the
                 body of the report and included in their entirety as an attachment.

                                                                   AUDIT RESULTS

                 Finding No.1 The School Did Not Accurately Account for All PCSP Funds

                 For the project period, the School was unable to provide us with accounting records that
                 clearly identified expenditures paid with PCSP grant funds. The School's accounting
                 records were not complete and did not classify all of the PCSP expenditures by specific
                 object, classification, or fund codes. When we asked for accounting records showing

                 I   See Objective, Scope, and Methodology section.



                         Our mission Is to promote the efficiency, effectiveness, and Integrity of the Department's programs and operations.
Final Audit Report	                                                                         ED-OIG/A05-D0026


how the School used all the PCSP funds available for the project period, the School only
provided accounting records showing it spent $122,223 of the $169,700 available for the
project period. When we asked for an explanation, the School provided supplementary
information that accounted for the $47,477 ($169,700 - $122,223) in expenditures that
were not initially recorded in the accounting records.

According to 34 C.F.R. §§ 75.702 and 75.730(b),2 a grantee shall use fiscal control and
fund accounting procedures that insure proper disbursement of and accounting for federal
funds. The grantee must keep records that, among other things, fully show how it used
federal funds and other records to facilitate an effective audit.

During the project period, the School did not have policies and procedures to provide
reasonable assurance that the accounting records accurately documented the School’s use
of PCSP funds. If the School had policies and procedures for reconciling the accounting
records with its expenditures on a regular (for example, monthly) basis, the School would
have reasonable assurance that its accounting records fully showed how it used PCSP
funds.

Recommendations

We recommend that the Chief Financial Officer, Office of the Chief Financial Officer, in
conjunction with the Deputy Under Secretary for the Office of Innovation and
Improvement, instruct the School to

1.1 	      provide accounting records that accurately account for PCSP expenditures
           incurred for the project period; and

1.2 	      provide evidence that it has implemented policies and procedures for reconciling
           its accounting records with expenditures on a regular basis.

Auditee Comments

The School disagreed with the finding. The School agreed that it made coding mistakes
in its financial records for the project period, but the Superintendent did not believe that
this was a major issue because all of the PCSP funds were spent appropriately. The
School informed us that it has taken steps to ensure that its accounting records are
accurate, including developing policies and procedures that it implemented during the
2002-2003 school year. These policies and procedures were implemented to ensure that
the School increases the accuracy of its record keeping.




2
    Unless otherwise specified, all regulatory citations are to the July 1, 2001, volume.


                                                         2
Final Audit Report	                                                                 ED-OIG/A05-D0026


OIG Response

We reviewed the School’s comments and found no basis for changing the finding. In the
School’s written response, the Superintendent admitted that the accounting records did
not accurately reflect how the School expended PCSP funds for the project period.
Because the PCSP expenses were not accurately recorded in the accounting records, the
School did not have an adequate audit trail for the PCSP funds.

                                          BACKGROUND

The purpose of the PCSP is to provide grants for the planning, design, and initial
implementation of charter schools created by members of the local community. Grants
may be made for a period of up to three years. Funds may be used to plan and design the
education program of the charter school and evaluate the effects of charter schools.

Charter schools are governed by the charter school legislation enacted in the Elementary
and Secondary Education Act of 1965, as amended by the Improving America’s Schools
Act of 1994, Title X, Part C, Section 10304(f)(3), and the Charter Schools Expansion Act
of 1998.3 Charter schools that receive a grant directly from the federal government must
also adhere to regulations listed in 34 C.F.R. Parts 75, 82, and 99.

The School received its charter from the Higley Unified School District and opened in
September 2000. The School applied for a PCSP grant and received approval from ED
on September 29, 2000. The grant provided the School with start up funding for a three-
year period. For the project period (October 1, 2001, through September 30, 2002), the
second period of funding, the School received $150,000.

                      OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if the School expended ED funds according
to the law and applicable regulations. Our audit covered the award ED made on
September 15, 2001, for $150,000, $19,700 in PCSP funds the School carried over from
the prior period, and costs charged to the PCSP grant for the project period.

To accomplish our objective, we

• 	 interviewed the School’s charter holder;
• 	 reviewed accounting records and identified 128 expenditures totaling $169,7584
    charged to the PCSP grant for the project period;
• 	 judgmentally selected 8 PCSP expenditures totaling $22,481. We selected
    expenditures from 3 account categories (Equipment, Purchase Services, and
    Furniture and Equipment Less Than $300) and/or those with descriptions that, in our
    opinion, were inconsistent with the intent of the PCSP law; and

3
  The law was amended by the No Child Left Behind Act of 2001, Title V, Part B. 

4
  Though the School was awarded only $150,000 for the project period, it had carried over $19,700 from

the prior period, making $169,700 available for the project period. 



                                                    3
Final Audit Report	                                                      ED-OIG/A05-D0026


• 	 compared the School’s budget (submitted with an application to ED) with a listing of
    expenditures made during the project period.

We also relied, in part, on the School’s computer-processed data that the School
maintained using QuickBooks© software. The School also provided us with computer-
processed data from a prior third party vendor that used Visions financial software. We
compared the School’s data with information from ED’s Central Automated Processing
System. We also compared the School’s supporting documentation, consisting of
invoices and canceled checks, with the School’s computerized accounting records. Based
on our tests, we concluded the data were sufficiently reliable to be used in meeting the
audit’s objective.

We performed our audit work between December 2002 and March 2003. We visited the
School on December 4, 2002, and discussed the results of our audit with School officials
on March 25, 2003.

Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of audit described above.

                      STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we did not assess the adequacy of the School’s management control
structure applicable to all ED funds because this step was not necessary to achieve our
audit objective. Instead, we relied on testing of the School’s compliance with the PCSP
law and applicable regulations. Our testing disclosed a material weakness in the School's
management controls. The School did not have policies and procedures to provide
reasonable assurance that the accounting records accurately documented the School’s use
of PCSP funds. This weakness is discussed in the AUDIT RESULTS section of this
report.

                            ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report, represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
ED officials.

If you have additional comments or information that you believe may have a bearing on
the resolution of this audit, you should send them directly to the following ED officials,
who will consider them before taking final Departmental action on this audit.

                        Jack Martin, Chief Financial Officer
                        Office of the Chief Financial Officer
                        U.S. Department of Education
                        400 Maryland Avenue, SW, Room 4E313
                        Washington, DC 20202



                                             4
Final Audit Report                                                       ED-OIG/AOS-D0026




                      Nina Shokraii Rees, Deputy Under Secretary
                      Office of Innovation and Improvement
                      U.S. Department of Education
                      400 Maryland Avenue, SW, Room 4W317
                      Washington, DC 20202

It is ED's policy to expedite the resolution of audits by initiating timely action on the
findings and recommendations contained therein. Therefore, receipt of your comments
within 30 days would be greatly appreciated.

In accordance with the Freedom ofInformation Act (5 U.S.C. §552), reports issued by
the Office of Inspector General are available to members of the press and general public
to the extent information contained therein is not subject to exemptions in the Act.


                                              Sincerely,


                                         ~.~Q
                                              Ric~
                                              Regional Inspector General
                                              for Audit

Attachment




                                             5
Attachment

                                                                                                              1


             Goldie H Burge. Superintendem
             Country Gardens Charter Scbool
              6313 W Southem Ave
               Laveen, AZ 85339
                602·237·374 1


             SepL 8, 2003

             Dear Office of Inspector General:

             In response to your leiter dated August 14, 2003, the fo llowing explanations lite given to
             give written disagreement with the findings.

             All of our expenses were items approved in my grant. All of these have documented
             receipts. We understand there were coding mistakes, yet since all items were accounted
             fo r we do not feel this is a major issue. I do though understand your position in wanting II
             clearer record of accounts and have taken steps to achieve this.

             We are sponsored by Higley School District and during the first two years of operation,
             were required by Higley to usc: ABS Financial Services 10 handle all of our accounts
             payable and payroll. ADS kept all OUI records, cui our checlu and completed our budget
             and reports. I kept track o[what was spent on my own as well. ADS was found to be
             incompetent in many areas of our accounting records. since errors were being found left
             and right. Higley at the time had over 30 charter schools and they ....'Crt all complaining of
             the same problems. After two years of com plaints, Higley finall y allowed us to use
             another company or do our accounting or do it in·house. We began using an accountant
             from a st.ate auditor's office who came in weekly and completed our 1ICC0unling needs
             using quick books. She .....as new and was trying to help us set up a new system. Between
             ABS miscoding items to the wrong accounts and the new accountant just getting started
             and making some errors, ....'C ended up with items being missed and not placed in the
             correct PCSP code. Because I know what was spent and kept track of everything myself,
             I was able to catch the errors and correct them. This is why your audi tors found the
             problems stated in the finding.

             Remember·this is a new school just learning the ropes and we are all bound to make
             some mistakes. We have done nothing wrong and have spent the grant money
             appropriately.

             Action Taken:
             We have taken steps to increase our accuracy in record keeping by going to a totally in·
             house accounting system. I have hired a person to .....ork on accounts payable and have
             sent them to training on Quickbooks. We have put in a system of double checking each
             month's expenses after they are entered into the system. There are also less people for the
             paperwork to go through and therefore should cut down on mistakes in coding. In the




.------




                                                           1
           future. if I apply for and receive any grants, I will also be setting up a separate account
           for the grant expenses.

           After speaking to Frank Boenzi today, I hope this letter is sufficient to clear up this
           matter.




                                              Goldie H urge, Superintendent
                                              Country Gardens Charter School




.,- - - - - -




                                                         2

